HHS/OIG, Audit -"Medicaid Hospital Outlier Payments in Pennsylvania for State Fiscal
Years 1998-1999 Through 2002-2003,"(A-03-04-00211)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Hospital Outlier Payments in Pennsylvania for State Fiscal Years 1998-1999
Through 2002-2003," (A-03-04-00211)
November 30, 2005
Complete
Text of Report is available in PDF format (973 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This is one of a series of audits of State Medicaid outlier payments.  Our objective
was to determine whether Pennsylvanias method of computing inpatient hospital day outlier
and cost outlier Medicaid payments resulted in reasonable payments.  For the three hospitals
reviewed, Pennsylvanias method resulted in reasonable day outlier payments.  However,
it did not result in reasonable cost outlier payments because the State used an outdated
cost-to-charge ratio in its calculation.
We recommended that Pennsylvania:  develop a methodology to monitor the cost-to-charge
ratio during the fiscal year and adjust the ratio as necessary, and revise the State cost
outlier policy to use the cost-to-charge ratio from the most recent cost reporting period
and retroactively adjust provider payments for each year based on the actual cost-to-charge
ratio calculated for that year.  In response to our draft report, the State has taken
positive actions to update its payment system.